      United States Department of Agriculture




Office of Inspector General
Review of USDA Contract
Databases




                                       89901-0001-13
                                       September 2014
                                               Review of USDA Contract Databases 

                                                    Audit Report 89901-0001-13 

What Were OIG’s

Objectives

Our objectives were to
evaluate IAS contract data for
completeness and anomalies,
and to ensure that the data are
properly and accurately           OPPM Needs to Implement and Strengthen 
reported in accordance with       Controls Over IAS. 
laws and regulations.
                                  What OIG Found
What OIG Reviewed

We reviewed contract data         The Office of Procurement and Property Management (OPPM), the
from IAS for FYs 2011 and         agency responsible for supporting the Department of Agriculture’s
2012, and judgmentally            (USDA) procurement activities, uses the Integrated Acquisition
selected samples from six         System (IAS), USDA’s main procurement database, to manage its
agencies. We reviewed a           procurement process. USDA agencies’ contracting officers (CO) are
sample of payments that           responsible for inputting information in IAS. There were 71,138 IAS
avoided IAS controls,             contracts for fiscal years (FY) 2011 and 2012, totaling approximately
determined if required            $3.4 billion. We found 9,014 contract actions entered for payment in
contracts were entered into       the accounting system for contracts that were not entered in IAS. Of
FPDS-NG, and reviewed             the 26 contracts that we judgmentally selected for review, we found
warrant authorities to ensure     that COs did not input required information in IAS for 19 of the
COs did not exceed their          contracts. Instead of preparing the contracts in IAS first, COs
warrant authority limits.         deviated from established procedures and entered them for payment
                                  directly into the Financial Management Modernization Initiative
What OIG Recommends               system, USDA’s financial database. We also found 152 contracts,
                                  totaling $12.5 million, that were stored in IAS, but either were not
OPPM should develop               transferred to or listed as finalized in the Federal Procurement Data
procedures—such as periodic       System - Next Generation (FPDS-NG), the database used to report
reviews—for both OPPM and         USDA procurements to the public, as required by the Federal Funding
agencies to ensure all required   Accountability and Transparency Act of 2006 (FFATA).
contracts are entered and
tracked in IAS and listed as      Ultimately, because OPPM does not have adequate verification
finalized in FPDS-NG.             procedures to actively monitor procurement-related activities, IAS
OPPM should also remind           data are not complete. Consequently, if information is not entered
COs of their requirements to      into IAS and properly transferred to FPDS-NG, USDA cannot create
ensure information in FPDS-       accurate reports to publicize how taxpayer funds are being spent, and
NG is complete and accurate,      thus will not be in compliance with FFATA.
and should take steps to
ensure the 152 contracts          OPPM generally agreed with our findings. We accepted OPPM’s
identified are listed as          management decision on all seven recommendations.
finalized in FPDS-NG.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:          September 25, 2014

AUDIT
NUMBER:        89901-0001-13

TO:            Lisa M. Wilusz
               Associate Director
               Office of Procurement and Property Management

ATTN:          Lennetta Elias
               Audit Liaison Officer

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Review of USDA Contract Databases


This report presents the results of the subject review. Your written response to the official draft
report, dated September 18, 2014, is included, in its entirety, at the end of this report. Your
responses and the Office of Inspector General’s position are incorporated into the relevant
sections of the report. Based on your written responses, we are accepting your management
decision for all audit recommendations in the report, and no further response to this office is
necessary.

In accordance with Departmental Regulation 1720-1, final action needs to be taken within 1 year
of each management decision to prevent being listed in the Department’s annual Agency
Financial Report. Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Insufficient Oversight .......................................................................... 3
Finding 1: OPPM Needs to Implement and Strengthen Controls Over IAS .... 3
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
         Recommendation 3 ........................................................................................9
         Recommendation 4 ........................................................................................9
         Recommendation 5 ......................................................................................10
         Recommendation 6 ......................................................................................10
         Recommendation 7 ......................................................................................11
Scope and Methodology ........................................................................................ 12
Abbreviations ........................................................................................................ 14
Agency's Response ................................................................................................ 15
Background and Objectives 
Background
The Department of Agriculture’s (USDA) Chief Acquisition Officer (CAO) and Senior
Procurement Executive (SPE) have overall responsibility for USDA’s procurement activities.
Within USDA, the Assistant Secretary for Administration has been designated as the CAO, and
the Director of the Office of Procurement and Property Management (OPPM) has been
designated as the SPE. Within OPPM, the Procurement Policy Division (PPD) is responsible for
Departmentwide procurement policy and regulations, including the Agriculture Acquisition
Regulation (AGAR) and information or guidance for the USDA acquisition workforce.1

USDA procures the products and services it needs on a highly decentralized basis. The
acquisition of goods and services needed to support USDA programs is accomplished through
procurement offices managed by the various USDA agencies, with oversight provided by OPPM.
On behalf of the CAO and SPE, heads of the contracting activity (HCA) are responsible for
developing and maintaining an acquisition career management program in compliance with
mandatory acquisition training and experience standards.2 There are 11 heads of contracting
activity designees (HCAD) in USDA who are charged with monitoring training for contracting
officers (CO). These HCADs have the authority to issue and revoke a CO’s warrant authority.3
HCADs are also responsible for establishing policies and procedures to implement the FAR.
The FAR is the primary regulation used by all Federal executive agencies in the acquisition of
supplies and services with appropriated funds and was established to codify uniform policies for
acquisition of supplies and services by executive agencies pursuant to the Office of Federal
Procurement Policy Act of 1974.4, 5 Additional procurement policy and guidance is found in
Departmental regulations.

According to the FAR, COs are responsible for ensuring performance of all necessary actions for
effective contracting, ensuring compliance with the terms of contracts, and safeguarding the
interests of the United States in its contractual relationships.6 Additionally, COs prepare
solicitations, awards, and contract modifications, which are assigned to them based on workload,

1
  According to the Code of Federal Regulations Title 48 - Federal Acquisition Regulations System, chapter 4,
subchapter A, section 401.101 (October 1, 2011), AGAR prescribes policies and procedures that implement and
supplement the Federal Acquisition Regulation (FAR), specific to USDA. On October 1, 2012, OPPM Procurement
Advisory 107 discontinued the use of AGAR Advisories and replaced them with a new series designated as USDA
Procurement Advisories. For the purposes of this audit, we used the AGAR Advisory designations that were in
effect for the period covering our audit.
2
  AGAR Advisory 85, Acquisition Workforce, Training, Delegation, and Management System (May 9, 2008).
3
  HCADs are employees designated by the HCA to carry out the functions of the HCA. The 11 HCADs are from the
following agencies: Animal and Plant Health Inspection Service (APHIS); Agricultural Research Service (ARS);
Farm Service Agency (FSA); which has two HCADs—one for IAS and one for the Web Based Supply Chain
Management System which only contains purchases of commodities; Food Safety and Inspection Service (FSIS);
Food and Nutrition Service (FNS); Forest Service (FS); Natural Resources Conservation Service (NRCS); Office of
Inspector General (OIG); OPPM - Procurement Operations Division (POD); and Rural Development (RD).
4
  FAR 1.101 and 1.103 (September 13, 2012). .
5
  Office of Federal Procurement Policy Act, Public Law 93-400 (August 30, 1974).
6
  FAR 1.602-2 (September 13, 2012).

                                                                      AUDIT REPORT 89901-0001-13             1
expertise, and warrant authority. AGAR Advisory 100A provides information concerning the
appointment of warranted COs, the scope of warrant authority, and the consequences of
exceeding or inappropriately using one’s warrant authority. COs are responsible for
understanding warrant limitations and ensuring the awards they make comply with those
limitations.7

The Office of the Chief Financial Officer (OCFO) and OPPM assist USDA in acquiring goods
and services. The Integrated Acquisition System (IAS) facilitates USDA’s procurement
activities from requisitioning to contract management to authorizing invoice payment. Via the
IAS interface with OCFO’s financial accounting system, Financial Management Modernization
Initiative (FMMI), invoice payments are made to contractors, utilizing purchase orders for goods
and services.8

OPPM’s Procurement Systems Division (PSD) is primarily responsible for developing,
deploying, and maintaining IAS. IAS is USDA’s enterprise-wide acquisition system, which
serves 6,000 users.9 It was designed to streamline and automate contract management and
acquisition processes throughout USDA.

The General Services Administration’s Federal Procurement Data System - Next
Generation (FPDS-NG) is a database established to collect information about the
Government’s procurements to track how and where tax dollars are spent.10 Information
in FPDS-NG is published on USASpending.gov, which offers public users access to the
spending patterns of the Federal Government. IAS interfaces with FPDS-NG to provide
USDA contract information electronically.

Objectives
Our objectives were to analyze contract data in IAS to check for completeness and anomalies,
and to ensure that contract data are properly and accurately reported in accordance with laws and
regulations.

We also reviewed contracts with multiple modifications or high dollar modifications during the
first year, and tested to ensure that contractors were not on the Excluded Parties List. We did not
identify any errors in these areas.




7
  AGAR Advisory 100A, USDA Contracting Officers Warrant Guidelines (May 1, 2012).
8
  According to OCFO’s FMMI website, FMMI is USDA’s web-based financial system, which manages over $100
billion in disbursements.
9
  With the interface to FMMI, IAS has been configured to support standards for transactions completed in the
system.
10
   FAR 4.606 (September 13, 2012).

2     AUDIT REPORT 89901-0001-13
Section 1:  Insufficient Oversight 
Finding 1: OPPM Needs to Implement and Strengthen Controls Over IAS
OPPM has not established active monitoring controls and processes to ensure required
procurement information is recorded in IAS, and therefore complete. We identified the
following issues: (1) COs did not enter all required contracts into IAS; (2) in some instances, the
interface between IAS and FPDS-NG, a database used to report procurement information to the
public, did not function as designed so that information from IAS would be transferred to or
listed as finalized in FPDS-NG; and (3) IAS’ limited capability for storing COs’ various warrant
amounts rendered the system inaccurate and incomplete .11 Overall, this occurred because
agencies were not including required contract information in IAS, USDA’s system of
record. Additionally, we found that, in the case of IAS data being transferred to FPDS-NG, COs
did not always ensure that the information was successfully migrated—such as in instances when
the interface between IAS and FPDS-NG was not functioning. Ultimately, because OPPM, the
agency responsible for supporting USDA’s procurement activities, does not have adequate
verification procedures to actively monitor procurement-related activities, IAS data are not
complete. Consequently, if information is not entered into IAS, then interfaced with FPDS-NG,
and listed as finalized, USDA cannot create accurate reports to publicize how taxpayer funds are
being spent, and thus will not be in compliance with the Federal Funding Accountability and
Transparency Act of 2006 (FFATA).

In 2012, Secretary Vilsack launched the Blueprint for Stronger Service, directing USDA
agencies to take steps to cut costs and modernize operations. Such efforts involved improving
the Department’s oversight of contracts, including better acquisition management and data
analysis. OPPM’s PSD is responsible for providing products and services to support USDA’s
acquisitions—primarily through developing, deploying, operating, and maintaining IAS, the
Departmentwide procurement system. The Privacy Act System of Records Notice (SORN) for
IAS published in 2008, states that IAS was intended to be a new system of record and that the
records should include “information incident to and developed in the acquisition process.” 12
Agency COs are also required to ensure contract actions are accurately listed and finalized in
FPDS-NG, the database used to report information to the public and meet the reporting
requirements of FFATA.13

However, we found that oversight of USDA procurement processes broke down at three levels.
First, we found COs did not enter all appropriate contracts into IAS, and instead entered some
contract actions only into FMMI, USDA’s database for disbursing payments to contractors.
Next, we noted that even when COs did enter contracts into IAS, in some instances, the
information was not transferred to, or listed as finalized, in FPDS-NG. Finally, we found that
IAS, which currently stores information regarding COs and their warrant authority, was

11
   In order for contracts to be reportable, they must not only be present in FPDS-NG, but also be listed as finalized in
FPDS-NG.
12
   This includes, but is not limited to, “solicitations and statements of work; contractor bids, quotes, and proposals;
awards; and other documents relevant to particular acquisitions.” The Privacy Act SORN, Federal Register Doc.
E8-8917, volume 73, number 80, pages 22125-22127 (April 24, 2008).
13
   FAR 4.603(a) and (b) and FAR 4.604(b)(1) (September 13, 2012).

                                                                            AUDIT REPORT 89901-0001-13                3
inaccurate and incomplete—which hinders agencies’ and OPPM’s oversight of procurement
activities.14

        IAS Incompleteness

        Generally, the invoice payment process for most contracts originates in IAS, and
        payments are made through an interface with FMMI.15 According to the Privacy Act
        SORN for IAS, “USDA has developed and implemented a new system of records
        designated as [IAS]. The records in this system include all information incident to and
        developed in the acquisition process.” With this functionality, IAS has the ability to
        facilitate payment to the contractor for an IAS contract. To do this, records should be
        stored in IAS prior to FMMI payment. Both the National Institute of Standards and
        Technology Special Publication (NIST SP) 800-53 and the Federal Information Security
        Management Act (FISMA) require IAS to have specific checks, controls, and system
        integrity validations to ensure content is accurate, consistent, and reasonable.16, 17
        However, these requirements alone do not necessarily ensure that the COs responsible for
        entering information into IAS are following these guidelines. Internal controls—such as
        regular monitoring—must be implemented at both the agency and OPPM levels to ensure
        all agencies follow existing procedures and that required contracts are accurately
        accounted for.

        Although there may be valid circumstances for contract actions to originate outside of
        IAS, in the course of our audit, we found 9,014 contract actions, such as purchase orders,
        for contracts that were not entered in IAS.18 Purchase orders are used to pay contractors
        and normally originate in IAS. Instead, we found instances where COs directly entered
        the contract action into FMMI for invoice payment, without a corresponding contract in
        IAS, during fiscal year (FY) 2012. We judgmentally selected a sample of 26 contract
        actions associated with contracts, and found that 19 contracts, totaling $795,429.09,
        should have been recorded in IAS, but were not.19 Specifically, of the 19 contracts:

             ·   Eight were not entered into IAS because the agency responsible for the contract
                 was not using IAS at the time.



14
   At the time of our audit, IAS only stored one warrant authority per CO. With recent proposed modifications to
IAS, the system should now be able to include multiple warrant authorities.
15
   Certain financial transactions—such as cooperative agreements and lease agreements—would not go through IAS
and are allowed to originate in FMMI. Our judgmental sample of 26 contract actions included 7 such contracts.
Therefore, we only considered the 19 contracts that should have originated in IAS in this finding.
16
   NIST SP 800-53, R3, section SI-1 (August 2009).
17
   FISMA 2002, Title 3 – Information Security, section 301 (December 17, 2002).
18
   We were unable to determine the total dollar amount of the universe of directly entered FMMI contracts. The
information we were given pertained to line items on a purchase order; the only way to determine the total value of
the purchase order was to look up each individually in FMMI. As a result, we did not quote a dollar amount for the
9,014 purchase orders in our subset of the universe.
19
   The 26 contract actions were judgmentally selected based on their “commitment item description” field indicating
they may be contracts required to be entered in IAS, such as “other contract services” or “miscellaneous services.”
The sample was further screened to reduce the likelihood of qualified contract actions directly entered into FMMI.

4     AUDIT REPORT 89901-0001-13
             ·    Seven were not entered into IAS because the contractors were unable to properly
                  register on the online Federal contractor database, the System for Award
                  Management (SAM), previously known as the Central Contractor Registration
                  (CCR) system, as required. Therefore, the contractor would not be listed in IAS,
                  and the contract would not be released.
             ·    One was entered directly into FMMI by a CO to expedite payment.
             ·    Three were not entered into IAS, but the agencies involved had no explanation for
                  why this occurred.

         While the Privacy Act SORN for IAS already stated that IAS was intended to be a new
         system of record and that the records should include “all information incident to and
         developed in the acquisition process,” OPPM also issued AGAR Advisory 105 on
         October 1, 2012, which specifically requires COs to utilize IAS. 20 This additional
         guidance addresses some of the problematic situations we identified. For example,
         agencies explained that of the 19 contracts we identified, 8 occurred because the agency
         responsible was not using IAS at the time.

         Second, OPPM must ensure that agencies work with contractors to make sure that
         contractors are listed in IAS. To do so, contractors first need to be listed in the online
         Federal contractor database, SAM, previously known as CCR. Once contractors are in
         SAM, they can then be interfaced with and listed in IAS. According to agencies, because
         contractors for 7 of the 19 contracts were not able to properly register on the online
         Federal contractor database, these contracts were not entered in IAS.21

         Third, OPPM must guarantee that agencies establish a procedure to ensure that, in
         instances where COs input contracts directly into FMMI, the information is later added
         into IAS. Although OPPM does have procedures requiring COs to input contracts into
         IAS in most instances, we found cases where COs deviated from these procedures and
         instead input the information directly into FMMI. For 1 of our 19 contracts, we found the
         contract was entered directly into FMMI by a CO to expedite payment. Without controls
         in place—such as a periodic check at both the agency and OPPM levels—to ensure that
         contracts in FMMI are also listed in IAS, these issues could continue to occur.

         If invoice payments for contracts required to be in IAS are entered directly into FMMI,
         instead of going first through IAS, OPPM may not have access to all the information
         needed for oversight of service contracts, such as the purchase requisition, the award
         document, and the receipt or record of completion. Additionally, if the information is not


20
   AGAR Advisory 105, Use of Automated Procurement Systems (October 1, 2012), was created during the
performance of another OIG audit, Review of Procurement Operations, Audit Report 92501-0001-12 (September
2013).
21
   According to one agency that encountered this issue, vendors were not in SAM initially due to system errors.
Most of these issues also occurred at the end of the FY—when the pressure is heaviest on the contracting staff to get
the contracts processed—and several staff members stated that wait times for assistance from the SAM Help Desk
were very long. The other agency which experienced difficulty with vendors being listed in IAS stated that the
vendor’s registration status had expired. Because it was also the end of the FY, the CO could not wait the 24 to
48 hours it usually takes to update the vendor’s status in IAS, so the award was processed directly into FMMI.

                                                                           AUDIT REPORT 89901-0001-13              5
        in IAS, it would not be subject to IAS’ controls and edit checks. Finally, if contract
        information and actions are not in IAS, they will not be automatically transferred over to
        FPDS-NG, which is required and will be discussed in the following paragraphs.

        The IAS/FPDS-NG Interface Did Not Function as Designed

        We also found that not all required contracts were transferred to, or listed as finalized, in
        FPDS-NG. Information in IAS is supposed to be automatically transferred to FPDS-NG,
        the Governmentwide database containing contract information available to the public.
        Per the FPDS-NG user’s manual, that information can only be used for reporting if it is
        listed as finalized within FPDS-NG.22, 23

        Information from FPDS-NG is used on USASpending.gov, a website which provides
        transparency to the public about how its tax dollars are spent. Under the FAR, executive
        agencies are required to use FPDS-NG to maintain publicly available information about
        all unclassified contract actions over the micro-purchase threshold of $3,000, and for any
        modifications to those actions that change previously reported contract data.24 According
        to the FAR, it is the COs’ responsibility to ensure information is complete in FPDS-NG.25
        Additionally, as with IAS, it is OPPM’s responsibility to ensure that USDA contract
        information from previous FYs is complete and accurate in FPDS-NG.26

        Of the 71,138 contracts in IAS, we found 152 contracts, totaling nearly $12.5 million for
        FYs 2011 and 2012, which were either not listed as finalized in FPDS-NG, or not in
        FPDS-NG at all, and which should have been. Of the 152 contracts, we reviewed the 29
        highest-dollar contracts to identify why they were not in FPDS-NG or listed as finalized.
        We found that, while issues stemmed from various interface anomalies—which OPPM
        PSD has taken steps to resolve—ultimately, these issues occurred and may continue to
        occur because (1) the COs responsible for these contracts did not review FPDS-NG
        records to ensure that information was indeed finalized and complete in FPDS-NG, and
        (2) OPPM and agencies do not sufficiently review FPDS-NG contract data.

        First, COs need to ensure that contracts are listed as finalized in FPDS-NG. When we
        spoke to agencies, several attributed the problematic contracts to interface problems.
        OPPM explained that, while users cannot bypass the interface, on rare occasions when
        the FPDS-NG interface was not functioning properly, the CO could contact the IAS Help
        Desk to temporarily disable a specific contract’s requirement to input the information into
        FPDS-NG.27 In such instances, however, OPPM stated it would then be the CO’s
        responsibility to input this information into FPDS-NG. Because COs did not always take
        this measure when there were interface problems, FPDS-NG was incomplete. Currently,


22
   FPDS-NG User’s Manual, version 1.3 (October 2008).
23
   Before an award can be released in IAS, IAS requires verification from FPDS-NG that the record is listed as
complete. This process is automatically triggered for contracts greater than the micro-purchase threshold.
24
   FAR 4.603(b) (September 13, 2012).
25
   FAR 4.604(b)(1) (September 13, 2012).
26
   Improving Federal Procurement Data Quality - Guidance for Annual Verification and Validation (May 31, 2011).
27
   The IAS Help Desk is staffed by a third-party company that is under contract to OPPM.

6     AUDIT REPORT 89901-0001-13
OPPM does not obtain activity logs from the IAS Help Desk to follow up on any
instances in which the FPDS-NG interface requirement was temporarily disabled in the
contracting process.

Additionally, OPPM and agencies need to perform periodic checks to make sure that all
required contracts are listed as finalized in FPDS-NG. Currently, OPPM selects a sample
of contracts for verification, and then has each agency’s head of contracting activity
designees (HCAD) verify that the information for this sample of FPDS-NG contracts
matches the information listed for those contracts in IAS. However, this review does not
identify contracts that are in IAS, but are missing from FPDS-NG. Without a periodic
check at both the agency and OPPM levels in place, OPPM and agencies will remain
unaware of incomplete data and, therefore, will be unable to address it.
OPPM PSD has released an update to address the interface problem, which will
automatically designate the FPDS-NG as finalized, once the CO completes the record.
While this may ensure the IAS/FPDS-NG interface is online and functioning, OPPM
should develop a periodic procedure to ascertain that the required IAS contracts are
finalized in FPDS-NG.

While we acknowledge that interface anomalies are inevitable, controls must be in place
at both the agency and OPPM level to ensure that the accuracy and completeness of
information is not compromised when such instances do occur. OPPM officials stated
that they believed that the interface problem was rare; however, if information is not
successfully transferred from IAS to FPDS-NG and listed as finalized, USDA cannot
create accurate reports to publicize how taxpayer funds are being spent, and thus will not
be in compliance with FFATA.

OPPM Does Not Have a Complete Central Database of COs’ Warrant Authorities

OPPM is responsible for maintaining a current list of COs and their warrant authorities so
that the present status of USDA’s acquisition workforce can be determined. This list is
also used annually to inform the Office of Federal Procurement Policy and the Federal
Acquisition Institute of USDA’s current acquisition workflow status.

We found, at the time of our audit, that COs often have different warrant authorities for
different types of acquisitions. We also found that OPPM kept a separate, manually
compiled list outside of IAS that stored this data. However, this list did not contain all of
the COs’ multiple warrant authorities. This occurred because IAS could only store one
warrant authority level for each CO in IAS. This list was sometimes inaccurate and
incomplete. For example, we identified 20 COs that were listed as exceeding their
warrant authorities, but found that no current COs actually had exceeded their warrant
authority. The one CO that did exceed their warrant authority is no longer with USDA.
Without a reliable list of CO warrant amounts, OPPM cannot ensure that COs are not
exceeding their authorities. The agency stated that the updated IAS contracts module
now provides enhanced enforcement of CO warrant level by specific types of acquisitions
to prevent COs from exceeding their warrant authority. After obtaining an IAS extract
from OPPM listing the COs, their warrant types, and dollar limits associated with each

                                                        AUDIT REPORT 89901-0001-13         7
       warrant type, we acknowledge that this control will help mitigate inappropriate contract
       obligations in the future.

       In response to a recent OIG audit, OPPM has improved IAS to store CO warrant
       information and has required in AGAR Advisory 105 that all agencies use IAS. OPPM
       also agreed to update its processes, which included revising a checklist to ensure all pre-
       and post-award acquisition requirements are documented, developing a procurement
       management oversight plan, and performing a complete review of contract files. Now
       that all agencies have transitioned to IAS, IAS should be the system of record and other
       lists should not be used.


Recommendation 1

Coordinate with OCFO to evaluate a sample of contract actions not entered in the Integrated
Acquisition Systems (IAS), and determine the feasibility and cost benefit of discovering
procurement dollars missing from IAS for the first 9 months of FY 2014 (October 2013 through
June 2014). If material, work with the heads of contracting activity designees (HCAD) to
retroactively ensure that all appropriate USDA contracts are input into IAS.

Agency Response
The Office of Procurement and Property Management (OPPM) will coordinate with OCFO, by
March 31, 2015, to evaluate a sample of contract actions not entered in the Integrated
Acquisition System (IAS) to determine if it is feasible and cost effective to identify procurement
dollars missing from IAS during the first nine months of FY 2014. If material, Heads of
Contracting Activity Designees (HCAD) will be contacted to ensure all appropriate USDA
contracts are retroactively input in IAS. The estimated completion date is March 31, 2015.

OIG Position
We accept management decision for this recommendation.

Recommendation 2

Issue guidance to each HCAD to develop and implement procedures at both the agency and the
Office of Procurement and Property Management (OPPM) Procurement Policy Division (PPD)
levels, such as periodic reviews of specific contracts that were directly processed for invoice
payment in the Financial Management Modernization Initiative (FMMI) system, to ensure that
all required contracts are in IAS.




8    AUDIT REPORT 89901-0001-13
Agency Response
By December 31, 2014, OPPM will update existing guidance, Procurement Advisory 105A,
which currently requires contracts to be entered in IAS. The revised version will add a
requirement for each HCAD to develop and implement procedures, such as periodic reviews of
specific contracts that were directly processed in the Financial Management Modernization
Initiative (FMMI), to ensure all required contracts are in IAS. The estimated completion date is
December 31, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 3

Confirm that all USDA contractors are registered in the System for Award Management (SAM),
and can therefore be listed in IAS.

Agency Response
By December 31, 2014, OPPM will update existing guidance, Procurement Advisory 105A,
requiring HCADs to ensure all USDA contractors are registered in the System for Award
Management (SAM), and can therefore be listed in IAS. The estimated completion date is
December 31, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 4

Work with the agencies to confirm the 152 contracts identified are transferred to, and listed as
finalized in, the Federal Procurement Data System - Next Generation (FPDS-NG).

Agency Response
OPPM Procurement Systems Division (PSD) is developing a report in the IAS reporting utility
(Discoverer) to show all awards that are for more than $3,000 that are in approved or released
status but do not have an FPDS approval number in IAS. This report should be available by
October 31st, 2014, and will be made available to the OPPM PPD, and all agencies through the
Discoverer reporting utility. This report will provide OPPM PPD and the agencies the ability to
track the clearing out of the existing 152 contracts that do not have finalized records in FPDS-
NG (recommendation #4) and enable OPPM PPD and the agencies to periodically check for new
awards that do not have a finalized record in FPDS-NG (recommendation #7).


                                                               AUDIT REPORT 89901-0001-13          9
OPPM PSD will conduct outreach with the agencies on the availability of this new management
tool. The estimated completion date is October 31, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 5

Issue guidance requiring agency Contracting Officers (COs) to make sure information in
FPDS-NG is complete, as required by the Federal Acquisition Regulation (FAR).

Agency Response
By December 31, 2014, OPPM will update existing guidance, Procurement Advisory 87C, to
emphasize that Contracting Officers (CO) must ensure information in FPDS-NG is complete, as
required by the Federal Acquisition Regulation (FAR). The estimated completion date is
December 31, 2014.

OIG Position
We accept management decision for this recommendation.

Recommendation 6

Develop and implement procedures for OPPM Procurement Systems Division (PSD) to provide,
on a monthly basis, an IAS Help Desk activity log of instances in which the FPDS-NG interface
was temporarily disabled, in order for PPD to take proper action in confirming that required IAS
contracts are listed as finalized in FPDS-NG.

Agency Response
The IAS Help Desk has implemented internal procedures to document in a log any instance of
IAS Help Desk action to deviate from the normal FPDS-NG interface in order to allow for the
processing of awards that do not have a valid FPDS-NG record. This log will be provided to the
OPPM PPD on the 1st day of each calendar month. The estimated completion date is
December 31, 2014.

OIG Position
We accept management decision for this recommendation.




10     AUDIT REPORT 89901-0001-13
Recommendation 7

Develop and implement a procedure for OPPM PPD and agencies to periodically make sure that
required IAS contracts are listed as finalized in FPDS-NG.

Agency Response
OPPM PSD is developing a report in the IAS reporting utility (Discoverer) to show all awards
that are for more than $3,000 that are in approved or released status but do not have an FPDS
approval number in IAS. This report should be available by October 31st, 2014, and will be
made available to the OPPM PPD, and all agencies through the Discoverer reporting utility.
This report will provide OPPM PPD and the agencies the ability to track the clearing out of the
existing 152 contracts that do not have finalized records in FPDS-NG (recommendation #4) and
enable OPPM PPD and the agencies to periodically check for new awards that do not have a
finalized record in FPDS-NG (recommendation #7). PSD will conduct outreach with the
agencies on the availability of this new management tool. The estimated completion date is
October 31, 2014.

OIG Position
We accept management decision for this recommendation.




                                                           AUDIT REPORT 89901-0001-13        11
Scope and Methodology 
We performed this audit to analyze 71,138 IAS contracts from FYs 2011 and 2012 to check for
completeness and anomalies, and to ensure that the data are properly and accurately reported in
accordance with laws and regulations. We initially interviewed nine major procurement
agencies with HCADs: the Agricultural Research Service, the Animal and Plant Health
Inspection Service, the Farm Service Agency, the Food and Nutrition Service, the Food Safety
and Inspection Service, the Forest Service, the Natural Resources Conservation Service,
OPPM Procurement Operations Division, and Rural Development.28

To review IAS’ content, we obtained data extracts from IAS, FMMI, and FPDS-NG, and
judgmentally selected a sample of contracts from IAS for FYs 2011 and 2012. Our universe
consisted of 71,138 contracts in IAS, totaling approximately $3.4 billion.29 We excluded
purchase card data from our universe, and only included contracts with a status of “Released,”
“Approved,” “Completed,” or “Closed.”30 We judgmentally selected samples that demonstrated
the six most pressing anomalies, listed below:31

     ·   13 contracts with vendors listed on the Excluded Parties List System.
     ·   20 contracts with the highest number of modifications during the first year.
     ·   20 contracts with the highest modification percentage change increase in original award
         amount during the first year.
     ·   20 COs for 21 contracts who potentially exceeded their warrant authority.
     ·   29 highest-dollar IAS contracts greater than the micro-purchase threshold of $3,000 that
         were not transferred to or listed as finalized in FPDS-NG.
     ·   26 contract actions directly entered into FMMI, and not into IAS.

We started survey work in November 2012 at USDA offices in Washington, D.C. and
Kansas City, Missouri. Fieldwork was conducted from January 2013 through July 2014. To
accomplish our audit objectives, we performed the following audit procedures:

     ·   Obtained and reviewed contracting policies and procedures put in place by OPPM—
         including standard operating procedures, checklists, and any advisories that agencies may

28
   The universe of procurement agencies comprises a total of 11 major procurement agencies. Because OIG is
USDA’s tenth procurement agency, we did not include OIG in our review. OIG’s procurement operations would be
reviewed by OIG’s Office of Compliance and Integrity (OCI). OCI performs independent quality assurance and
internal control reviews of OIG operations. Additionally, FSA has two procurement offices within the agency—one
deals with commodity procurements, which we did not review, since commodities go through a different
procurement process. As such, we consider our auditable universe for the IAS procurement database to be the nine
major procurement agencies.
29
   Before beginning an analysis of this information, we performed tests to ensure data completeness and validity by
checking for duplicates, confirming control totals, and determining whether records applied to FYs 2011 and 2012.
30
   IAS could be configured to provide agencies with the option of using IAS to manage their purchase card
programs. However, OIG recently conducted an audit of FY 2011 purchase card data; therefore, purchase card data
were excluded from this audit’s universe so as to not duplicate audit work already completed. We are currently
finalizing the results of this review.
31
   Within each of these six samples, we limited the contracts to six of the nine procurement agencies in our universe
to keep the burden on the agencies low.

12       AUDIT REPORT 89901-0001-13
       have sent out that documented any change in the procurement process—as well as the
       FAR and AGAR Advisories, to better understand the Department’s contracting processes.

   ·   Interviewed 9 of the 11 agency HCADs and acting HCADs, who were responsible for
       overseeing the procurement process, to understand HCAD responsibilities, and specific
       guidelines and policies about the procurement processes for their respective agencies.

   ·   Interviewed staff responsible for maintaining contractor-related information systems—in
       particular, IAS—and collected documentation, such as user guides and data dictionaries,
       to become familiar with the systems.

   ·   Gained access to IAS data to analyze for anomalies and ensure that the data are properly
       and accurately reported in accordance with laws and regulations.

   ·   Reviewed warrant authorities against issued warrant certificates to ensure COs did not
       exceed their warrant authority limits.

   ·   Discussed issues found in each contract’s data during our review with agency personnel
       responsible for their respective contract to validate our analysis and obtain the agency’s
       response.

Our reliance on IAS was limited to performing our analysis of FYs 2011 and 2012 data. Our
efforts focused on providing reasonable assurance that IAS data did not contain significant errors
which would undermine the credibility of our analyses and conclusions. Although data from
FMMI and FPDS-NG were used, we did not audit these two databases for data reliability since
our objective was focused on the completeness of IAS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                              AUDIT REPORT 89901-0001-13         13
Abbreviations 
AGAR ....................................Agriculture Acquisition Regulation
APHIS ....................................Animal and Plant Health Inspection Service
ARS ........................................Agricultural Research Service
CAO .......................................Chief Acquisition Officer
CCR........................................Central Contractor Registration
CO ..........................................Contracting Officer
FAR .......................................Federal Acquisition Regulation
FFATA ...................................Federal Funding Accountability and Transparency Act of 2006
FISMA ...................................Federal Information System Management Act
FMMI ....................................Financial Management Modernization Initiative
FNS ........................................Food and Nutrition Service
FPDS-NG ..............................Federal Procurement Data System - Next Generation
FS ...........................................Forest Service
FSA .......................................Farm Service Agency
FSIS........................................Food Safety and Inspection Service
FY ..........................................Fiscal Year
HCA ......................................Head of Contracting Activity
HCAD ....................................Head of Contracting Activity Designee
IAS .........................................Integrated Acquisition Systems
NIST SP .................................National Institute of Standards and Technology Special Publication
NRCS .....................................Natural Resources Conservation Service
OCFO .....................................Office of the Chief Financial Officer
OCI.........................................Office of Compliance and Integrity
OIG ........................................Office of Inspector General
OPPM.....................................Office of Procurement and Property Management
POD........................................Procurement Operations Division
PPD .......................................Procurement Policy Division
PSD .......................................Procurement Systems Division
RD ..........................................Rural Development
SAM .......................................System for Award Management
SORN .....................................System of Records Notice
SPE.........................................Senior Procurement Executive
USDA.....................................Department of Agriculture




14      AUDIT REPORT 89901-0001-13
Agency's Response 




                  USDA’S
       OFFICE OF PROCUREMENT AND
         PROPERTY MANAGEMENT
        RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 89901-0001-13   15
United States
Department of
Agriculture
                      September 18, 2014

Office of the Chief    TO:           Gil H. Harden
Financial Officer
                                     Assistant Inspector General for Audit
1400 Independence                    Office of Inspector General
Avenue, SW

Washington, DC         FROM:         Lisa M. Wilusz         -s- Joseph A. Ware
20250                                Associate Director         FOR
                                     Office of Procurement and Property Management

                       SUBJECT: Management Response to Review of USDA Contract Databases, Audit
                                No. 89901-0001-13


                      This responds to your request for management’s response to the audit recommendations
                      in the Draft Audit Report No. 89901-0001-13. The management response is attached.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-7529.

                      Attachment




                                                  AN EQUAL OPPORTUNITY EMPLOYER
            Review of USDA Contract Databases, Audit No. 89901-0001-13


Recommendation 1

Coordinate with OCFO to evaluate a sample of contract actions not entered in the
Integrated Acquisition System (IAS), and determine the feasibility and cost benefit of
discovering procurement dollars missing from IAS for the first 9 months of FY 2014
(October 2013 through June 2014). If material, work with the Heads of Contracting
Activity Designees (HCAD) to retroactively ensure that all appropriate USDA contracts
are input into IAS.

Management Response: The Office of Procurement and Property Management (OPPM)
will coordinate with OCFO, by March 31, 2015, to evaluate a sample of contract actions
not entered in the Integrated Acquisition System (IAS) to determine if it is feasible and
cost effective to identify procurement dollars missing from IAS during the first nine
months of FY 2014. If material, Heads of Contracting Activity Designees (HCAD) will
be contacted to ensure all appropriate USDA contracts are retroactively input in IAS.

Date Corrective Action will be Completed: March 31, 2015

Responsible Organization: OPPM


Recommendation 2

Issue guidance to each HCAD to develop and implement procedures at both the agency
and OPPM Procurement Policy Division (PPD) levels, such as periodic reviews of
specific contracts that were directly processed for invoice payment in the Financial
Management Modernization Initiative (FMMI) system, to ensure that all required
contracts are in IAS.

Management Response: By December 31, 2014, OPPM will update existing guidance,
Procurement Advisory 105A, which currently requires contracts to be entered in IAS.
The revised version will add a requirement for each HCAD to develop and implement
procedures, such as periodic reviews of specific contracts that were directly processed in
the Financial Management Modernization Initiative (FMMI), to ensure all required
contracts are in IAS.

Date Corrective Action will be Completed: December 31, 2014

Responsible Organization: OPPM PPD




                                             2
Recommendation 3

Confirm that all USDA contractors are registered in the System for Award Management
(SAM), and can therefore be listed in IAS.

Management Response: By December 31, 2014, OPPM will update existing guidance,
Procurement Advisory 105A, requiring HCADs to ensure all USDA contractors are
registered in the System for Award Management (SAM), and can therefore be listed in
IAS.

Date Corrective Action Will Be Completed: December 31, 2014.

Responsible Organization: OPPM PPD


Recommendation 4

Work with the agencies to confirm the 152 contracts identified are transferred to, and
listed as finalized in, the Federal Procurement Data System – Next Generation (FPDS-
NG).

Management Response: OPPM Procurement Systems Division (PSD) is developing a
report in the IAS reporting utility (Discoverer) to show all awards that are for more than
$3,000 that are in approved or released status but do not have an FPDS approval number
in IAS. This report should be available by October 31st, 2014, and will be made available
to the OPPM PPD, and all agencies through the Discoverer reporting utility. This report
will provide OPPM PPD and the agencies the ability to track the clearing out of the
existing 152 contracts that do not have finalized records in FPDS-NG (recommendation
#4) and enable OPPM PPD and the agencies to periodically check for new awards that do
not have a finalized record in FPDS-NG (recommendation #7). OPPM PSD will conduct
outreach with the agencies on the availability of this new management tool.

Date Corrective Action will be Completed: October 31, 2014

Responsible Organization: OPPM PSD


Recommendation 5
Issue guidance requiring agency Contracting Officers (COs) to make sure information in
FPDS-NG is complete, as required by the Federal Acquisition Regulation (FAR).

Management Response: By December 31, 2014, OPPM will update existing guidance,
Procurement Advisory 87C, to emphasize that Contracting Officers (CO) must ensure
                                            3
information in FPDS-NG is complete, as required by the Federal Acquisition Regulation
(FAR).

Date Corrective Action will be Completed: December 31, 2014

Responsible Organization: OPPM PPD


Recommendation 6

Develop and implement procedures for OPPM PSD to provide, on a monthly basis, an
IAS Help Desk activity log of instances in which the FPDS-NG interface was temporarily
disabled, in order for OPPM PPD to take proper action in confirming that required IAS
contracts are listed as finalized in FPDS-NG.

Management Response: The IAS Help Desk has implemented internal procedures to
document in a log any instance of IAS Help Desk action to deviate from the normal
FPDS-NG interface in order to allow for the processing of awards that do not have a valid
FPDS-NG record. This log will be provided to the OPPM PPD on the 1st day of each
calendar month.

Date Corrective Action will be Completed: December 31, 2014

Responsible Organization: OPPM


Recommendation 7

Develop and implement a procedure for OPPM PPD and agencies to periodically make
sure that required IAS contracts are listed as finalized in FPDS-NG.

Management Response: OPPM PSD is developing a report in the IAS reporting utility
(Discoverer) to show all awards that are for more than $3,000 that are in approved or
released status but do not have an FPDS approval number in IAS. This report should be
available by October 31st, 2014, and will be made available to the OPPM PPD, and all
agencies through the Discoverer reporting utility. This report will provide OPPM PPD
and the agencies the ability to track the clearing out of the existing 152 contracts that do
not have finalized records in FPDS-NG (recommendation #4) and enable OPPM PPD and
the agencies to periodically check for new awards that do not have a finalized record in
FPDS-NG (recommendation #7). PSD will conduct outreach with the agencies on the
availability of this new management tool.

Date Corrective Action will be Completed: October 31, 2014

Responsible Organization: OPPM
                                             4
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
